                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11 Case Number: I05100065                                                                             'I
                                                                                                Page 1 of 1



           The National Science Foundation Office of Inspector General conducted a proactive review of
           USPRlSI grants. As part of the review, we examined the USP award1issued to the subjdit
           gantee' institution2.

           Our proactive review of the grant jacket identified an issue of concern with the grantee institution
           whichkwarranted closer examination. On review, and based upon information provided by the
           Program ~irector,)it was determined that the issue did not indicate systemic weakness at the
           grantee institution.

           Given the lack of any evidence that the awardee had improperly expended grant funds or put
           grant funds at risk, the approval of the cognizant Program Officer, and the relatively insignificant
           size of the award funds at issue, this case is closed without M e r action.




           3
                 ~


II
 NSF OIG Form 2 (1 1/02)
